                 OFFICE OF JUSTICE PROGRAMS
                 ANNUAL FINANCIAL STATEMENT
                      FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

      This audit report contains the Annual Financial Statement of the Office
of Justice Programs (OJP) for the fiscal years (FY) ended September 30,
2009, and September 30, 2008. Under the direction of the Office of the
Inspector General (OIG), KPMG LLP performed OJP’s audit in accordance
with U.S. generally accepted government auditing standards. The audit
resulted in an unqualified opinion on the FY 2009 financial statements. An
unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s
operations in conformity with U.S. generally accepted accounting principles.
For FY 2008, OJP also received an unqualified opinion on its financial
statements (OIG Report No. 09-17).

       KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2009, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified one significant deficiency
related to improvements needed in the system and controls over recording
budgetary upward and downward adjustments. Specifically, the audit
identified weaknesses in OJP’s review process for posting recoveries of prior
year obligations. No instances of significant non-compliance with laws and
regulations or other matters were identified during the audit.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on OJP’s financial statements, conclusions
about the effectiveness of internal control, conclusions on whether OJP’s
financial management systems substantially complied with the Federal
Financial Management Improvement Act of 1996, or conclusions on
compliance with laws and regulations. KPMG LLP is responsible for the
attached auditors’ reports dated November 6, 2009, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with U.S. generally
accepted government auditing standards.
